             Message from the Inspector General

        On behalf of the Office of Inspector General (OIG) of the Board of Governors of the
Federal Reserve System (Board) and the Consumer Financial Protection Bureau (CFPB), I am
pleased to present our Semiannual Report to Congress highlighting our accomplishments and
ongoing work for the six-month period ending March 31, 2012. This is a dynamic time for both
agencies, as well as the OIG, and we are proud of the work that we have performed and the
reports we have issued.

        Of particular note this reporting period, we issued our Inquiry into Allegations of Undue
Political Interference with Federal Reserve Officials Related to the 1972 Watergate Burglary
and Iraq Weapons Purchases during the 1980s; three failed bank reviews, with associated
estimated losses to the Deposit Insurance Fund of $653.9 million; the financial statement audits
for the Board and the Federal Financial Institutions Examination Council, both of which received
“clean,” unqualified opinions; and our annual Federal Information Security Management Act of
2002 audit reports for the Board and the CFPB. Further, during this reporting period the
president and chief executive officer of Orion Bank entered a guilty plea to a criminal
information in which he was charged with conspiring to commit bank fraud, misapplying bank
funds, making false entries in the bank’s books and records, and obstructing a bank examination.

         The OIG also issued its 2012 annual plan after conducting extensive risk analysis that
included meetings with Board and CFPB officials to gain their insight on the most significant
challenges and issues facing their programs and operations. The OIG also engaged in extensive
strategic planning meetings internally to draw upon the experience and expertise of our
employees. The resultant annual plan provides for cross-cutting oversight of the Board and the
CFPB to help ensure the economy, efficiency, and effectiveness of the agencies’ programs and
activities. Our annual plan is posted on our website at
http://m-fwapp3p.frb.gov/OIG/strategicPlan/2012%20Annual%20Plan_02-10-12_web.pdf.

       To assist us in providing appropriate oversight of the Board’s and the CFPB’s programs
and activities, the OIG is expanding its staff, as well as establishing regional offices, to enable
more timely and effective coverage of audit, inspection, and investigative matters occurring
outside of the Washington, D.C., area. We are working to establish regional offices in New
York, Chicago, San Francisco, and Miami, and we hope to have them all operational this
calendar year.

       I want to express my appreciation to the Board and the CFPB for their cooperation and
support of the work of the OIG.

                                             Sincerely,



                                            Mark Bialek
                                         Inspector General
                                           April 30, 2012
Office of Inspector General




Semiannual Report to Congress
    October 1, 2011–March 31, 2012
Table of Contents
                                                                                                                    Page
Highlights.................................................................................................................1

Introduction ..............................................................................................................3

Overview of the OIG’s Strategic Plan 2011 – 2015 ................................................5

Audits and Attestations ............................................................................................6

Multidisciplinary Work at the Board .....................................................................12

Inspections and Evaluations ...................................................................................14

Information on Nonmaterial Losses to the Deposit Insurance Fund,
as Required by the Dodd-Frank Act ......................................................................26

Consumer Financial Protection Bureau .................................................................27

Investigations .........................................................................................................29

Legal Services ........................................................................................................34

Communications and Coordination .......................................................................35

Appendixes

   Appendix 1a—Audit, Inspection, and Evaluation Reports Issued to the
               Board with Questioned Costs during the Reporting Period .....39

   Appendix 1b—Audit, Inspection, and Evaluation Reports Issued to the
               CFPB with Questioned Costs during the Reporting Period ......40

   Appendix 2a—Audit, Inspection, and Evaluation Reports Issued to the
               Board with Recommendations that Funds Be Put to Better
               Use during the Reporting Period ..............................................41

   Appendix 2b—Audit, Inspection, and Evaluation Reports Issued to the
               CFPB with Recommendations that Funds Be Put to Better
               Use during the Reporting Period ...............................................42

   Appendix 3a—OIG Reports to the Board with Recommendations that
               Were Open during the Reporting Period ...................................43

   Appendix 3b—OIG Reports to the CFPB with Recommendations that
               Were Open during the Reporting Period ...................................45


Semiannual Report to Congress                                      i                                          April 2012
   Appendix 4a—Audit, Inspection, and Evaluation Reports Issued to the
               Board during the Reporting Period ...........................................46

   Appendix 4b—Audit, Inspection, and Evaluation Reports Issued to the
               CFPB during the Reporting Period ...........................................47

   Appendix 5—OIG Peer Reviews ......................................................................48

   Appendix 6—Cross-References to the IG Act..................................................49

Table of Acronyms and Abbreviations ..................................................................51




Semiannual Report to Congress                           ii                                  April 2012
Highlights
Consistent with our responsibilities under the Inspector General Act of 1978, as
amended (IG Act), and the Dodd-Frank Wall Street Reform and Consumer
Protection Act (Dodd-Frank Act), the Office of Inspector General (OIG) continued
to promote the integrity, economy, efficiency, and effectiveness of the programs
and operations of the Board of Governors of the Federal Reserve System (Board)
and the Consumer Financial Protection Bureau (CFPB). The following are
highlights of our work during this semiannual reporting period.

       Special Inquiry. We issued our final report on our Inquiry into
        Allegations of Undue Political Interference with Federal Reserve Officials
        Related to the 1972 Watergate Burglary and Iraq Weapons Purchases
        during the 1980s. We initiated this inquiry in response to a request from
        the then Chairman of the House Committee on Financial Services to the
        Board for an investigation into allegations raised by a member of
        Congress during the February 2010 Humphrey-Hawkins hearing. The
        Board referred the request to our office for action. We performed this
        inquiry to identify and assess any available evidence of undue political
        interference with Federal Reserve officials related to the 1972 Watergate
        burglary and Iraq weapons purchases during the 1980s. Regarding the
        specific Watergate allegations, we did not find any evidence of undue
        political interference with or improper actions by Federal Reserve officials
        related to the cash found on the Watergate burglars. We also did not find
        any evidence of undue political interference with Federal Reserve officials
        or inaccurate responses by Board officials regarding an allegation that the
        Federal Reserve officials “stonewalled” congressional members and staff
        regarding the source of the cash found on the burglars. With regard to the
        Iraq allegation, we did not find any evidence of undue political
        interference with Federal Reserve officials or any indications that the
        Federal Reserve facilitated a $5.5 billion loan to Saddam Hussein or Iraq
        for weapons purchases during the 1980s. We also did not find evidence of
        any loans between the Federal Reserve and Saddam Hussein or Iraq
        during the 1980s.

       Failed Bank Reviews. We completed three failed bank reviews during
        the reporting period, with associated total estimated assets of $2.0 billion
        and losses to the Deposit Insurance Fund (DIF) of $653.9 million. For
        each bank reviewed, we identified the causes of the failure, supervisory
        issues/concerns, and lessons learned from the failure.

       Financial Statement Audits. We issued the financial statement audits for
        the Board and the Federal Financial Institutions Examination Council
        (FFIEC), both of which received “clean,” unqualified opinions. We
        contracted with Deloitte & Touche LLP, an independent public accounting
        firm, to conduct the audits, and we oversaw its work.




Semiannual Report to Congress             1                                 April 2012
       Annual Information Security Audits. We completed our annual Federal
        Information Security Management Act of 2002 (FISMA) audits of the
        Board and the CFPB. We found that the Board continued to maintain a
        FISMA-compliant approach to its Information Security Program.
        Regarding the CFPB, we found that it is relying on the Information
        Security Program and computer systems of the Department of the
        Treasury (Treasury), and we relied on the FISMA work of the Treasury
        OIG to avoid duplication of effort. KPMG LLC, an independent certified
        public accounting firm, conducted the Treasury OIG’s 2011 FISMA audit
        and concluded that Treasury’s Information Security Program and practices
        for its non-Internal Revenue Service bureaus’ unclassified systems were
        generally consistent with the requirements of FISMA.

       Bank President Pleads Guilty. The president and chief executive officer
        of Orion Bank entered a guilty plea to a criminal information in which he
        was charged with conspiring to commit bank fraud, misapplying bank
        funds, making false entries in the bank’s books and records, and
        obstructing a bank examination. The charges relate to his role in a scheme
        to lend $82 million to “straw” borrowers acting on behalf of an Orion
        Bank borrower who had reached the bank’s legal lending limit.
        Additionally, the loans concealed $15 million in bank funds to be used for
        the purchase of Orion stock by the above-mentioned borrower, in violation
        of banking laws and regulations.




Semiannual Report to Congress           2                               April 2012
Introduction
Congress established the OIG as an independent oversight authority within the
Board, the government agency component of the broader Federal Reserve System.
In addition, the Dodd-Frank Act established the OIG as the independent oversight
authority for the CFPB. Within this framework, the OIG conducts audits,
investigations, and other reviews related to Board and CFPB programs and
operations. By law, the OIG is not authorized to perform program functions.

Consistent with the IG Act, our office, as the OIG for the Board and the CFPB,

     conducts and supervises independent and objective audits, investigations,
      and other reviews related to Board and CFPB programs and operations

     promotes economy, efficiency, and effectiveness within the Board and the
      CFPB

     helps prevent and detect fraud, waste, abuse, and mismanagement in
      Board and CFPB programs and operations

     reviews existing and proposed legislation and regulations and makes
      recommendations regarding possible improvements to Board and CFPB
      programs and operations

     keeps the Board of Governors, the Director of the CFPB, and Congress
      fully and timely informed

Congress has also mandated additional responsibilities that influence the OIG’s
priorities, to include the following:

       Section 38(k) of the Federal Deposit Insurance Act (FDI Act) requires that
        the OIG review failed financial institutions supervised by the Board that
        result in a material loss to the DIF and produce a report within six months.
        The Dodd-Frank Act amended section 38(k) of the FDI Act by raising the
        materiality threshold, but also by requiring that the OIG report on the
        results of any nonmaterial losses to the DIF that exhibit unusual
        circumstances that warrant an in-depth review.

       Section 211(f) of the Dodd-Frank Act requires that the OIG review the
        Board’s supervision of any covered financial company that is placed into
        receivership and produce a report that evaluates the effectiveness of the
        Board’s supervision, identifies any acts or omissions by the Board that
        contributed to or could have prevented the company’s receivership status,
        and recommends appropriate administrative or legislative action.

       Section 989E of the Dodd-Frank Act established the Council of Inspectors
        General on Financial Oversight (CIGFO), which comprises the Inspectors
        General (IGs) of the Board, the Commodity Futures Trading Commission
        (CFTC), the Department of Housing and Urban Development, Treasury,

Semiannual Report to Congress            3                                April 2012
        the Federal Deposit Insurance Corporation (FDIC), the Federal Housing
        Finance Agency (FHFA), the National Credit Union Administration
        (NCUA), and the Securities and Exchange Commission (SEC) and the
        Special Inspector General for the Troubled Asset Relief Program
        (SIGTARP). CIGFO is required to meet at least quarterly to share
        information and discuss the ongoing work of each IG, with a focus on
        concerns that may apply to the broader financial sector and ways to
        improve financial oversight. Additionally, CIGFO is required to issue a
        report annually that highlights the IGs’ concerns and recommendations, as
        well as issues that may apply to the broader financial sector.

       With respect to information technology (IT), FISMA established a
        legislative mandate for ensuring the effectiveness of information security
        controls over resources that support federal operations and assets.
        Consistent with FISMA requirements, we perform an annual independent
        evaluation of the Board’s and the CFPB’s Information Security Programs
        and practices, including the effectiveness of security controls and
        techniques for selected information systems.

       The USA Patriot Act of 2001, Public Law No. 107-56, grants the Board
        certain federal law enforcement authorities. Our office serves as the
        external oversight function for the Board’s law enforcement program.

       Section 11B of the Federal Reserve Act mandates annual independent
        audits of the financial statements of each Federal Reserve Bank and of the
        Board. We oversee the annual financial statement audits of the Board, as
        well as the FFIEC. (Under the Dodd-Frank Act, the Government
        Accountability Office performs the financial statement audits of the
        CFPB.) The FFIEC is a formal interagency body empowered to prescribe
        uniform principles, standards, and report forms for the federal examination
        of financial institutions by the Board, the FDIC, the NCUA, the Office of
        the Comptroller of the Currency (OCC), and the CFPB and to make
        recommendations to promote uniformity in the supervision of financial
        institutions. In 2006, the State Liaison Committee was added to the
        FFIEC as a voting member. The State Liaison Committee includes
        representatives from the Conference of State Bank Supervisors, the
        American Council of State Savings Supervisors, and the National
        Association of State Credit Union Supervisors.




Semiannual Report to Congress         4                                  April 2012
Overview of the OIG’s Strategic Plan 2011 – 2015

The following chart represents the structure of the OIG’s strategic plan, which we
updated to incorporate, among other things, new requirements under the Dodd-
Frank Act, including our responsibilities as the OIG for the CFPB.




Semiannual Report to Congress               5                             April 2012
Audits and Attestations
The Audits and Attestations program assesses aspects of the economy, efficiency,
and effectiveness of Board and CFPB programs and operations. For example,
Audits and Attestations conducts audits of (1) the Board’s financial statements
and financial performance reports; (2) the efficiency and effectiveness of
processes and internal controls over agency programs and operations; (3) the
adequacy of controls and security measures governing agency financial and
management information systems and the safeguarding of assets and sensitive
information; and (4) compliance with applicable laws and regulations related to
agency financial, administrative, and program operations. As mandated by the IG
Act, OIG audits and attestations are performed in accordance with the
Government Auditing Standards established by the Comptroller General. The
information below summarizes OIG work completed during the reporting period
and ongoing work that will continue into the next semiannual reporting period.

COMPLETED AUDIT WORK AT THE BOARD

Audit of the Board’s Financial Statements as of and for the Years Ended
December 31, 2011 and 2010, and Audit of the FFIEC’s Financial Statements
as of and for the Years Ended December 31, 2011 and 2010

The OIG contracts with an independent public accounting firm to annually audit
the financial statements of the Board and the FFIEC. (The Board performs the
accounting function for the FFIEC.) The accounting firm, currently Deloitte &
Touche LLP, performs the audits to obtain reasonable assurance that the financial
statements are free of material misstatement. The OIG oversees the activities of
the contractor to ensure compliance with generally accepted government auditing
standards and Public Company Accounting Oversight Board auditing standards
related to internal controls over financial reporting. The audits include
examining, on a test basis, evidence supporting the amounts and disclosures in the
financial statements. The audits also include an assessment of the accounting
principles used and significant estimates made by management, as well as an
evaluation of the overall financial statement presentation.

In the auditors’ opinion, the Board’s and the FFIEC’s financial statements
presented fairly, in all material respects, the financial position, results of
operations, and cash flows of each entity as of December 31, 2011 and 2010, in
conformity with accounting principles generally accepted in the United States. To
determine the auditing procedures necessary to express an opinion on the
financial statements, the auditors reviewed the Board’s and the FFIEC’s internal
control over financial reporting. For the third year, the auditors also expressed an
opinion on the effectiveness of the Board’s internal control over financial
reporting based on the Public Company Accounting Oversight Board standards.
In the auditors’ opinion, the Board maintained, in all material respects, effective
internal control over financial reporting as of December 31, 2011. With regard to
the FFIEC’s internal control over financial reporting, the auditors noted no


Semiannual Report to Congress                6                            April 2012
matters involving internal control over financial reporting that were considered
material weaknesses in accordance with Government Auditing Standards.

As part of obtaining reasonable assurance that the financial statements are free of
material misstatement, the auditors also performed tests of the Board’s and the
FFIEC’s compliance with certain laws and regulations, since noncompliance with
these provisions could have a direct and material effect on the determination of
the financial statement amounts. The results of the auditors’ tests disclosed no
instances of noncompliance that would be required to be reported under
Government Auditing Standards.

Audit of the Board’s Information Security Program

During this reporting period, we completed our annual audit of the Board’s
Information Security Program and practices. The audit was performed pursuant
to FISMA, which requires that each agency IG conduct an annual independent
evaluation of the agency’s Information Security Program and practices. Based on
FISMA requirements, our specific audit objectives were to evaluate (1) the
Board’s compliance with FISMA and related information security policies,
procedures, standards, and guidelines and (2) the effectiveness of security controls
and techniques for a subset of the Board’s information systems.

In accordance with Department of Homeland Security reporting requirements, our
FISMA review included an analysis of the Board’s information security–related
processes in the following areas: risk management, continuous monitoring
management, plans of action and milestones, identity and access management,
remote access management, security configuration management, security training,
contractor oversight, contingency planning, incident response and reporting, and
security capital planning.

Overall, we found that the Board’s Chief Information Officer (CIO) continued to
maintain a FISMA-compliant approach to the Board’s Information Security
Program that is generally consistent with National Institute of Standards and
Technology (NIST) and Office of Management and Budget (OMB) requirements.
The Information Security Officer (ISO) continued to issue and update information
security policies and guidelines. During 2011, the ISO developed an enterprise IT
risk assessment framework initiative and a continuous monitoring strategy and
began to implement a new automated workflow support tool that will provide an
automated workflow method for documenting, reviewing, and approving the
security posture of all Board information systems. In addition, the ISO took
corrective actions in response to a number of open recommendations from our
prior FISMA reports.

Although progress has been made by the ISO to address the new NIST guidance
regarding risk management, the enterprise IT risk assessment framework needs to
be fully implemented Boardwide and the automated workflow support tool needs


Semiannual Report to Congress         7                                  April 2012
to be fully operational for the Board to meet the requirements of NIST’s
organizationwide risk management approach. Our report contained a
recommendation that the CIO complete and fully implement the enterprise IT risk
assessment framework Boardwide and ensure that the automated workflow
support tool is fully operational to comply with updated NIST guidance on the
new Risk Management Framework.

In addition, our report included matters for management’s consideration based on
our analysis of the Board’s contractor oversight and security capital planning
programs. While not specifically required by NIST or OMB, the following
actions could help strengthen the Board’s information security posture: (1) under
the Board’s contractor oversight program, ensure that the Board’s new automated
workflow tool for managing the security posture of all Board information systems
incorporates appropriate security management information for third-party systems
operated by Federal Reserve Banks on behalf of the Board and (2) under the
Board’s security capital planning and investment program, to ensure adequate
tracking of system security investments, enhance the Board’s system development
methodology by clarifying steps to account and budget for security over the
system life cycle and analyze how security capital planning information at the
system and enterprise levels can be integrated into the IT performance dashboard
to provide a more comprehensive understanding of the business value and
performance of the Board’s information systems.

Upon review of open recommendations from our prior FISMA reports, we
determined that sufficient action had been taken to close the recommendations
from our 2010 FISMA report. To transform the Board’s certification and
accreditation process into the NIST Risk Management Framework and implement
new NIST requirements for assessing security controls, our 2010 FISMA report
included the following two recommendations to the CIO: (1) continue to develop
and implement a Boardwide IT risk management strategy as required by NIST
Special Publication 800-53, Revision 3, Recommended Security Controls for
Federal Information Systems and Organizations (SP 800-53), Program
Management family of controls and (2) as additional NIST and OMB guidance is
issued and becomes effective, develop a continuous monitoring strategy and
implement a continuous monitoring program as required by SP 800-53, Security
Assessment and Authorization family of controls. Because the ISO developed
and began implementing an enterprise IT risk assessment framework within the
Division of Information Technology, we closed out the first recommendation.
With the ISO issuing a continuous monitoring strategy and beginning the
implementation of an expanded continuous monitoring program, we also closed
the second recommendation.

Our 2010 FISMA report also included a recommendation that the CIO identify all
IT services provided by organizations other than the Board and determine whether
they need to be accredited as a third-party contractor system or as part of an



Semiannual Report to Congress        8                                 April 2012
existing general support system or major application. The CIO has taken
sufficient actions to close this recommendation.

In addition, given the new NIST guidance regarding risk management that
incorporates risk assessment, we closed a recommendation from our 2008 FISMA
report that the CIO ensure that risk assessments are adequately identifying,
evaluating, and documenting the level of risk to information systems based on
potential threats, vulnerabilities, and currently implemented or planned controls,
to determine whether additional controls are needed.

The Director of the Board’s Division of Information Technology, in her capacity
as the CIO, agreed with our 2011 recommendation that the CIO complete and
fully implement the enterprise IT risk assessment framework Boardwide and
ensure that the automated workflow support tool is fully operational for the Board
to be compliant with updated NIST guidance on risk management. We will
continue to monitor the ISO’s actions in implementing the enterprise IT risk
assessment framework Boardwide, which include improving overall risk
assessments.

Security Control Review of the National Remote Access Services System

During this reporting period, we completed our security control review of the
Federal Reserve System’s National Remote Access Services (NRAS) system.
The Board and the 12 Federal Reserve Banks use NRAS to remotely access Board
and Federal Reserve Bank information systems. Our objectives were to evaluate
the effectiveness of selected security controls and techniques to ensure that the
Board maintains a remote access program that is generally compliant with FISMA
requirements.

Overall, our review found that NRAS is technically and operationally sound and
that the Board has developed an adequate process to administer the token keys for
Board personnel. However, we identified opportunities to strengthen information
security controls to help ensure that NRAS meets FISMA requirements.

In comments on a draft of our report, the Director of the Board’s Division of
Information Technology generally agreed with our recommendations and outlined
corrective actions.

ONGOING AUDIT WORK AT THE BOARD

Audit of the Board’s Government Travel Card Program

During this reporting period, we completed our fieldwork and began drafting the
report for our review of the Board’s government travel card program. The Board
participates in the General Services Administration’s SmartPay2 government
travel card program. Our overall objective is to evaluate the effectiveness of the


Semiannual Report to Congress         9                                  April 2012
Board’s controls over the travel card program. We are assessing whether controls
(1) effectively provide reasonable assurance that cards are properly issued,
administered, and controlled; (2) detect and prevent unauthorized or fraudulent
transactions in a timely manner; and (3) adequately ensure proper use of the cards
in accordance with Board policy and procedures. We expect to issue our final
report during the next semiannual reporting period.

Audit of the Board’s Purchase Card Program

During this reporting period, we began a control review of the Board’s purchase
card program. The program is part of a governmentwide charge card program
administered by the General Services Administration to reduce the administrative
cost of acquiring low-cost, standard items. The purchase card program
streamlines business processes for certain government purchases as well as the
processes for certifying and approving purchases. The Board adopted the use of
purchase cards in 1995. The objective for this review is to determine whether
controls are in place to prevent fraud and abuse. Specifically, we are evaluating
the adequacy of procedures for issuing purchase cards and ensuring their proper
use, and we are evaluating cardholders’ compliance with current Board policies.
We expect to complete our review during the next semiannual reporting period.

Audit of the Board’s Internal Control Processes

During this reporting period, we completed our initial data-gathering and scoping
effort of the internal control process of the Board’s Management Division. Based
on our scoping work, we have begun an audit of the Board’s internal control
processes across divisions. The objective of this audit is to assess the processes
for establishing, maintaining, and monitoring internal control within the Board.
A properly designed and effectively implemented internal control process should
provide reasonable assurance that policies are followed and objectives are met;
programs achieve their intended results; resource use is consistent with laws,
regulations, and policies; and reliable information is obtained, maintained,
reported, and used for decisionmaking. We expect to complete our review during
the next semiannual reporting period.

Security Control Review of FISMA Assets Maintained by the Federal Reserve
Bank of Richmond

We completed the fieldwork and issued a draft report on a security control review
of two Lotus Notes applications listed on the Board’s FISMA inventory and
maintained by the Federal Reserve Bank of Richmond. The two database
applications are used by the Federal Reserve Bank of Richmond to support bank
examinations. Our review objectives are to (1) evaluate the effectiveness of
selected security controls and techniques for protecting the two Lotus Notes
applications from unauthorized access, modification, or destruction and (2) assess



Semiannual Report to Congress        10                                  April 2012
compliance with the Board’s Information Security Program. We plan to issue the
final report in the next semiannual reporting period.

Audit of the Board’s Continuity/Disaster Recovery Program for Its Information
Systems

We completed the fieldwork and began drafting our report on the Board’s
continuity/disaster recovery program for its information systems. Our audit
objective is to determine whether the Board is maintaining a program that is
generally consistent with NIST and OMB FISMA guidance. To accomplish this
objective, we developed a tailored control assessment program based on the
Contingency Planning family of information security controls in NIST SP 800-53.
We expect to complete our review during the next semiannual reporting period.

Security Control Review of the Office of Employee Benefits’ Information
Systems

We continued our fieldwork related to a security control review of information
systems of the Federal Reserve System’s Office of Employee Benefits (OEB).
Our overall objective is to determine whether the OEB and its contractors are
maintaining a program that is generally consistent with related NIST and OMB
FISMA guidance. Our specific control review objective is to evaluate the
adequacy of control techniques for protecting Board data in the information
systems from unauthorized access, modification, destruction, or disclosure. We
are using the Board’s Information Security Program and related NIST FISMA
guidance as criteria. We expect to complete our review during the next
semiannual reporting period.

Security Control Review of the National Examination Database System

We began a security control review of the National Examination Database system.
The National Examination Database system is listed as a major application on the
Board’s FISMA inventory for the Division of Banking Supervision and
Regulation (BS&R). Our specific control review objective is to evaluate the
adequacy of certain control techniques designed to protect data in the system from
unauthorized access, modification, destruction, or disclosure. We will use the
Board’s Information Security Program, FISMA requirements, and applicable
NIST guidelines as criteria.

Audit of the Board’s Progress in Developing Enhanced Prudential Standards
and Monitoring of Potential Systemic Risks

During this period, we issued for Board comment a draft management letter on
BS&R’s approach to developing enhanced prudential standards. We also drafted
a report on the Board’s actions to analyze potential risks related to mortgage
foreclosures. The Dodd-Frank Act charged the Board with significant


Semiannual Report to Congress        11                                 April 2012
responsibilities, including the development of complex rulemakings, many in
conjunction with other federal financial regulatory agencies. The act gave the
Board important new authorities to support financial stability, including the
responsibility for developing enhanced prudential standards for supervising large
bank holding companies with total consolidated assets of $50 billion or more and
systemically important nonbank financial companies designated by the Financial
Stability Oversight Council (FSOC).

Our objectives are to assess (1) BS&R’s approach to developing enhanced
prudential standards for large bank holding companies, including standards that
would apply to any nonbank financial company that FSOC designates as
systemically important, and (2) the Board’s activities in response to potential risks
related to mortgage foreclosures. We expect to finalize and issue our
management letter and audit report in the next reporting period.

Security Control Review of the Board’s Public Website

We issued for Board comment a revised draft report on our security control
review of the Board’s public website (Pubweb). Pubweb is listed as a major
application on the Board’s FISMA inventory for the Office of Board Members.
Pubweb provides the public with information about the mission and work of the
Board. Our audit objectives are to evaluate the effectiveness of selected security
controls and techniques for protecting Pubweb from unauthorized access,
modification, or destruction and to ensure compliance with the Board’s
Information Security Program.

After the end of the reporting period, we received written comments from the
Director of the Board’s Division of Information Technology and the Assistant to
the Board for the Office of Board Members, who stated that they generally agree
with the recommendations in our report. We anticipate issuing our final report in
the near future.

Multidisciplinary Work at the Board
Inquiry into Allegations of Undue Political Interference with Federal Reserve
Officials Related to the 1972 Watergate Burglary and Iraq Weapons Purchases
during the 1980s

In this reporting period, we issued our final report on our Inquiry into Allegations
of Undue Political Interference with Federal Reserve Officials Related to the
1972 Watergate Burglary and Iraq Weapons Purchases during the 1980s. We
initiated this inquiry in response to a request from the then Chairman of the House
Committee on Financial Services to the Board for an investigation into allegations
raised by a member of Congress, Representative Ron Paul, during the February
2010 Humphrey-Hawkins hearing before the committee, which the Board referred
to our office.


Semiannual Report to Congress          12                                  April 2012
We performed this inquiry to identify and assess any available evidence of undue
political interference with Federal Reserve officials related to the 1972 Watergate
burglary and Iraq weapons purchases during the 1980s. In assessing undue
political interference, our review sought to identify any available evidence of the
improper use of the political process or political authority that could have affected
the conduct or decisionmaking of Federal Reserve officials. Based on our review
of the February 2010 hearing record and discussions with the staffs of the then
committee Chairman and Representative Paul, we focused our analysis on
allegations that (1) the cash found on the Watergate burglars came through the
Federal Reserve, (2) the Federal Reserve “stonewalled” congressional members
and staff investigating the source of the cash found on the burglars, and (3) the
Federal Reserve facilitated a $5.5 billion loan to Iraq for weapons purchases
during the 1980s.

To identify any evidence regarding these matters, we searched voluminous Board
and Federal Reserve Bank archives, as well as congressional records. We
interviewed employees and examined documentation at the Board and on-site at
the Federal Reserve Banks of Philadelphia, Atlanta, and New York. Additionally,
we visited the Gerald R. Ford Presidential Library and Museum in Ann Arbor,
Michigan, to review the library collection of Arthur Burns, Board Chairman at the
time of the Watergate burglary. In conducting our inquiry, we also reviewed
documents and reports written by the Federal Bureau of Investigation (FBI), the
Government Accountability Office, and the Department of Justice.

We did not find any evidence of undue political interference with Federal Reserve
officials related to the 1972 Watergate burglary or Iraq weapons purchases during
the 1980s. Specifically, related to the Watergate allegations, we did not find any
evidence of undue political interference with or improper actions by Federal
Reserve officials related to the cash found on the Watergate burglars. We also did
not find any evidence of undue political interference with Federal Reserve
officials or inaccurate responses by Board officials regarding the allegation that
the Federal Reserve officials “stonewalled” congressional members and staff
regarding the source of the cash found on the burglars. With regard to the Iraq
allegation, we did not find any evidence of undue political interference with
Federal Reserve officials or any indications that the Federal Reserve facilitated a
$5.5 billion loan to Saddam Hussein or Iraq for weapons purchases during the
1980s. We did not find evidence of any loans between the Federal Reserve and
Saddam Hussein or Iraq during the 1980s.

In his comments on a draft of our report, the Board’s General Counsel stated that
our report confirmed past statements by Federal Reserve officials in relation to
these incidents, and he indicated his appreciation for the thoroughness of our
review. Our report did not contain any recommendations.




Semiannual Report to Congress          13                                  April 2012
Inspections and Evaluations
The Inspections and Evaluations program encompasses OIG inspections, program
evaluations, enterprise risk management activities, process design and life cycle
evaluations, and legislatively mandated reviews of failed financial institutions that
the Board supervises. Inspections are generally narrowly focused on a particular
issue or topic and provide time-critical analysis that cuts across functions and
organizations. In contrast, evaluations are generally focused on a specific
program or function and make extensive use of statistical and quantitative
analytical techniques. Evaluations can also encompass other preventive activities,
such as reviews of system development life cycle projects and participation on
task forces and workgroups. OIG inspections and evaluations are performed
according to the Quality Standards for Inspection and Evaluation issued by the
Council of the Inspectors General on Integrity and Efficiency (CIGIE).

COMPLETED INSPECTION AND EVALUATION WORK AT THE
BOARD

Failed Bank Reviews

                             Section 38(k) of the FDI Act requires that the IG of
                             the appropriate federal banking agency complete a
                             review of the agency’s supervision of a failed
                             institution and issue a report within six months of
                             notification from the FDIC IG when the projected
                             loss to the DIF is material. Under section 38(k) of
                             the FDI Act, as amended, a material loss to the DIF is
                             defined as an estimated loss in excess of $200 million
for losses that occurred from January 1, 2010, through December 31, 2011. For
the period January 1, 2012, through December 31, 2013, a material loss to the DIF
is defined as $150 million.

The material loss review provisions of section 38(k) require that the IG

       review the institution’s supervision, including the agency’s
        implementation of prompt corrective action (PCA)

       ascertain why the institution’s problems resulted in a material loss to the
        DIF

       make recommendations for preventing any such loss in the future

The Dodd-Frank Act also establishes specific requirements for bank failures that
result in losses below the materiality threshold. In these situations, the IG must
review the failure to determine, among other things, whether the loss exhibits
unusual circumstances that warrant an in-depth review. In such cases, the IG
must prepare a report in a manner consistent with the requirements of a material
loss review. Pursuant to the Dodd-Frank Act, the IG must semiannually report


Semiannual Report to Congress                14                             April 2012
the dates when each such review and report will be completed. If the IG
determines that a loss did not involve unusual circumstances, the IG is required to
provide an explanation of its determination in the above-mentioned semiannual
report. The OIG has included its report on nonmaterial loss bank failures in this
Semiannual Report to Congress (see page 26).

As shown in the table below, during this reporting period we issued three reports
on failed state member banks: two in which the loss to the DIF exceeded the
materiality threshold, and one in which the loss did not meet the materiality
threshold but presented unusual circumstances. These three banks had total assets
of approximately $2.0 billion and total losses estimated at $653.9 million, or
approximately 32.4 percent of total assets.

Failed Bank Reviews Completed during the Reporting Period
                                                                                   DIF
                                                Federal                         Projected                       FDIC OIG
                                                Reserve        Asset size         Loss           Closure       Notification
  State Member Bank          Location            Bank         (in millions)   (in millions)        Date           Datea

 Legacy Bankb               Milwaukee,          Chicago          $225.1           $43.5        03/11/2011          N/A
                               WI

 The Park Avenue           Valdosta, GA         Atlanta          $841.0          $326.1        04/29/2011       05/27/2011
 Bank

 First Chicago Bank         Chicago, IL         Chicago          $950.8          $284.3        07/08/2011       08/22/2011
 and Trust
 a. Date that our office received notification from the FDIC IG that the projected loss to the DIF would be material.
 b. Legacy Bank did not meet the materiality threshold; however, we determined that the bank’s failure
    presented unusual circumstances that warranted an in-depth review.


Legacy Bank

Legacy Bank (Legacy) began operations in July 1999 as a de novo state member
bank headquartered in Milwaukee, Wisconsin. Legacy was supervised by the
Federal Reserve Bank of Chicago (FRB Chicago) under delegated authority from
the Board, and by the State of Wisconsin Department of Financial Institutions
(State). The State closed Legacy on March 11, 2011, and named the FDIC as
receiver. According to the FDIC, the bank’s total assets at closing were
$225.1 million, and its failure resulted in an estimated $43.5 million loss to the
DIF. While the loss is beneath the materiality threshold, we conducted an in-
depth review after determining that Legacy’s failure presented unusual
circumstances: Examiners concluded that bank officers engaged in unsafe and
unsound banking practices, and the bank received $5.5 million in funds from the
Treasury’s Capital Purchase Program under the Troubled Asset Relief Program
(TARP).

Legacy failed because its board of directors and management did not adequately
control the risks associated with the bank’s aggressive growth strategy, which
focused on lending in low- to moderate-income neighborhoods within the city of


Semiannual Report to Congress                           15                                                   April 2012
Milwaukee. The bank was a community development financial institution that
provided financial services to customers in an underserved community.
Management depended on noncore funding sources to support the bank’s growth
strategy, which included providing loans to revitalize residential housing and
commercial properties in distressed neighborhoods in Milwaukee. As a result, the
bank developed a concentration in commercial real estate (CRE) loans and
became vulnerable to a downturn in the local economy. The failure of Legacy’s
board of directors and management to implement risk management practices
commensurate with the bank’s increased risk profile, coupled with a weakening
real estate market, led to rapid asset quality deterioration. Mounting losses
eliminated the bank’s earnings and depleted capital, which prompted the State to
close Legacy and appoint the FDIC as receiver.

With respect to supervision, FRB Chicago complied with the examination
frequency guidelines for the 2006–2011 time frame we reviewed, conducted
regular off-site monitoring, and implemented the applicable PCA provisions. Our
analysis of FRB Chicago’s supervision of Legacy revealed that FRB Chicago
identified the bank’s fundamental weaknesses, including ineffective board of
directors oversight, poor internal controls, and a high concentration in CRE loans,
but did not take early, forceful supervisory action to address those weaknesses.
Specifically, we believe that the findings noted during a March 2008 full-scope
examination warranted stronger criticism, including CAMELS composite and
component rating downgrades.1 We also noted that FRB Chicago complied with
the process outlined in Treasury’s evaluation guidance when Legacy’s holding
company applied for TARP funds in October 2008.

We believe that Legacy’s failure offers lessons learned that can be applied when
supervising banks with similar characteristics. In our opinion, Legacy’s failure
demonstrated the importance of (1) examiners assuring that management
implements credit risk management practices commensurate with the bank’s
strategy and risk profile, including CRE concentration levels, and (2) supervisors
assigning CAMELS composite and component ratings consistent with the
examination’s findings and narrative examination comments.

The Director of BS&R concurred with our conclusions and lessons learned.

The Park Avenue Bank

The Park Avenue Bank (Park Avenue) was founded in 1956 in Valdosta, Georgia.
In 1982, the bank established a parent holding company, PAB Bankshares, Inc.
Park Avenue became a state member bank in 2001 and was supervised by the
Federal Reserve Bank of Atlanta (FRB Atlanta), under delegated authority from

     1. The CAMELS acronym represents six components: capital adequacy, asset quality,
management practices, earnings performance, liquidity position, and sensitivity to market risk.
Each component and overall composite score is assigned a rating of 1 through 5, with 1 indicating
the least regulatory concern and 5, the greatest concern.

Semiannual Report to Congress               16                                         April 2012
the Board, and by the State of Georgia Department of Banking and Finance
(State). The State closed Park Avenue on April 29, 2011, and appointed the FDIC
as receiver. The FDIC OIG notified our office that Park Avenue’s failure would
result in an estimated loss to the DIF of $326.1 million, or 39 percent of the
bank’s $841.0 million in total assets at closing. The FDIC subsequently revised
its estimated loss to the DIF to exclude $20.0 million in debt issued by the holding
company under the FDIC’s Temporary Liquidity Guarantee Program.

Park Avenue failed because its board of directors and management did not
adequately control the risks associated with the bank’s growth strategy. The
bank’s strategy involved higher-risk CRE lending and expansion into new
markets, which resulted in a concentration in construction, land, and land
development (CLD) loans that made the bank particularly vulnerable to real estate
market declines. The board of directors’ and management’s failure to establish
credit risk management practices commensurate with the risks of CRE lending,
coupled with high concentrations and weakening real estate markets, led to rapid
asset quality deterioration. Mounting losses depleted earnings and eroded capital,
which prompted the State to close Park Avenue and appoint the FDIC as receiver.

With respect to supervision, FRB Atlanta complied with the examination
frequency guidelines for the time frame we reviewed, 2001 through 2011, and
conducted regular off-site monitoring. However, our analysis revealed that
Reserve Bank staff had opportunities to engage in more aggressive supervisory
activities when signs of credit risk management weaknesses persisted. In our
opinion, the bank’s failure to establish basic credit administration practices in
earlier years should have served as a warning sign for examiners that the bank
lacked credit administration practices commensurate with the high risk in its loan
portfolio, especially as its CRE and CLD concentrations increased. Supervisory
criticisms of credit risk management diminished as asset quality ratios and
earnings performance improved in 2003, despite continued weaknesses and few
signs that credit risk management had improved in proportion with the heightened
risk in the loan portfolio. Although Park Avenue did not appropriately identify,
monitor, and limit the risk in its loan portfolio, examiners rated the bank
satisfactory from 2003 through 2007 based, in part, on the bank’s strong earnings
and low level of classified assets. In our opinion, FRB Atlanta should have been
more aggressive in its supervisory activities when signs of credit risk management
weaknesses persisted, regardless of the bank’s financial performance.
Specifically, it should not have upgraded the bank’s CAMELS composite rating
in 2003 or terminated a 2003 board resolution before Park Avenue had clearly
demonstrated that it had resolved its credit risk management deficiencies.

Further, we believe that FRB Atlanta should have held bank management
accountable for not timely developing a CRE risk management program
consistent with the guidance outlined in Supervision and Regulation Letter 07-01,
Interagency Guidance on Concentrations in Commercial Real Estate Lending,



Semiannual Report to Congress         17                                  April 2012
Sound Risk Management Practices (SR Letter 07-01), especially given prior
fundamental credit risk management weaknesses.

We believe that the lessons learned from Park Avenue’s failure can be applied by
those supervising banks with similar characteristics and circumstances. Park
Avenue’s failure illustrates (1) the risks associated with a strategic focus on high-
risk loan products and expansion into new markets; (2) the importance of
establishing appropriate credit risk management practices, including concentration
limits and strong underwriting consistent with SR Letter 07-01 and the
Commercial Bank Examination Manual, prior to pursuing higher-risk lending;
and (3) the importance of scrutinizing any weaknesses in a function with
previously noted deficiencies and implementing aggressive supervisory action to
address those weaknesses.

The Director of BS&R concurred with our observations and lessons learned.

First Chicago Bank and Trust

First Chicago Bank and Trust (First Chicago) was created following the merger of
Labe Bank and Bloomingdale Bank and Trust in November 2006. Labe Bank
was a savings bank established in 1905 in Chicago, Illinois, and became a state
member bank in 2006. Bloomingdale Bank and Trust was a state member bank
established in 1991, and it operated in Bloomingdale, Illinois. First Chicago was
supervised by FRB Chicago, under delegated authority from the Board, and by the
Illinois Department of Financial and Professional Regulation (State). The State
closed First Chicago on July 8, 2011, and appointed the FDIC as receiver. The
FDIC OIG notified our office that First Chicago’s failure would result in a
$284.3 million loss to the DIF, or 29.9 percent of the bank’s $950.8 million in
total assets at closing.

First Chicago failed because its board of directors and management did not
adequately control the risks associated with the bank’s aggressive lending
strategy, which focused on CRE loans, including CLD loans. The bank’s
business strategy included loan growth through CRE lending, supported primarily
by noncore funding sources, and resulted in a CRE concentration. The 2006
merger that led to the creation of First Chicago reduced the bank’s CRE
concentration and helped diversify the bank’s loan portfolio. Management
planned to further reduce the bank’s concentration through loan diversification by
increasing lending in commercial and industrial loans. However, management’s
subsequent efforts failed to reduce and adequately manage the bank’s credit
concentration risks. First Chicago’s CRE loan concentration, particularly in CLD
loans, made the bank especially vulnerable to real estate market declines. First
Chicago’s board of directors’ and management’s failure to effectively manage the
bank’s CRE and CLD credit risk, coupled with a declining real estate market, led
to significant asset quality deterioration. Mounting losses depleted the bank’s



Semiannual Report to Congress          18                                  April 2012
earnings and eroded capital, which prompted the State to close First Chicago and
appoint the FDIC as receiver on July 8, 2011.

With respect to supervision, FRB Chicago complied with the examination
frequency guidelines for the 2007–2011 time frame we reviewed and conducted
regular off-site monitoring. Our analysis of FRB Chicago’s supervision of First
Chicago revealed that FRB Chicago had a number of opportunities to deliver a
stronger supervisory response. We believe a stronger supervisory response
related to the credit risk management of concentrations was warranted as early as
its April 2008 examination. In addition, while we recognize that FRB Chicago
downgraded First Chicago’s management CAMELS component rating in a June
2009 examination, we believe that an April 2009 supervisory assessment
presented an opportunity for stronger criticism of management’s performance
related to the bank’s deteriorating condition. Further, we believe that First
Chicago’s condition and management’s inability to timely address identified
deficiencies called for stronger criticism in a June 2010 examination, including a
management component downgrade.

We believe that First Chicago’s failure offers lessons learned that can be applied
to supervising banks with similar characteristics and circumstances. First
Chicago’s failure illustrates the importance of (1) timely implementation of a
robust credit risk assessment program designed to facilitate the identification and
management of concentrations, (2) closely monitoring and assessing management
performance, and (3) appropriately assigning management CAMELS ratings
commensurate with the issues identified during the examination.

The Director of BS&R concurred with our conclusions and lessons learned.

Transfer of Office of Thrift Supervision Functions

Title III of the Dodd-Frank Act established provisions for the transfer of authority
from the Office of Thrift Supervision (OTS) to the OCC, the FDIC, and the Board
within one year after the July 21, 2010, date of the act’s enactment. Under title
III, the Board received the functions and rulemaking authority for consolidated
supervision of savings and loan holding companies and their nondepository
subsidiaries. This transfer of OTS functions to the Board was effective on
July 21, 2011.

The Dodd-Frank Act required that, within 180 days after its enactment, the OTS,
the OCC, the FDIC, and the Board jointly submit a plan (Joint Implementation
Plan) to Congress and the IGs of Treasury, the FDIC, and the Board that detailed
the steps each agency would take to implement the title III provisions. The Joint
Implementation Plan was submitted to Congress and the IGs on January 25, 2011.
The Dodd-Frank Act required that the IGs conduct a review to determine whether
the implementation plan conformed to the title III provisions. On March 28, 2011,



Semiannual Report to Congress         19                                  April 2012
the IGs jointly issued a report concluding that the actions described in the Joint
Implementation Plan generally conformed to the provisions of title III.2

Section 327 of title III requires the IGs to report on the status of the
implementation of the Joint Implementation Plan every six months. The IGs have
submitted two status reports to date: one on September 28, 2011, and the other on
March 28, 2012. These joint reports, both titled Status of the Transfer of Office of
Thrift Supervision Functions, concluded that the Board, the FDIC, the OCC, and
the OTS have substantially implemented the actions in the plan to transfer OTS
functions, employees, funds, and property to the Board, the FDIC, and the OCC,
as appropriate. However, both reports noted that the Board was still undertaking
certain aspects of the plan, and the first report noted that certain other aspects
were not yet required to be completed as provided in title III.

In its written comments regarding the March 28, 2012, report, the Board stated
that it agreed with the IGs’ conclusion.

Review of the Division of Reserve Bank Operations and Payment Systems’
Oversight of the Next Generation $100 Note

During this reporting period, we completed a review of the Division of Reserve
Bank Operations and Payment Systems’ (RBOPS’s) oversight of the next
generation (NXG) $100 note. The Board is the sole issuer of U.S. currency, and
RBOPS (on behalf of the Board) is responsible for ensuring the high quality of the
Federal Reserve notes that are printed by Treasury’s Bureau of Engraving and
Printing (BEP). The NXG $100 note is the final denomination to be redesigned in
the NXG currency redesign project that began in 2000, and it includes the most
complex anticounterfeiting security features ever incorporated into U.S. currency.
We began this review as a result of the Board’s October 1, 2010, press release
announcing that it would delay issuing the NXG $100 note due to the increasing
incidence of currency paper creasing during the printing process. Our review
objectives were to (1) assess RBOPS’ oversight of the design and production of
the NXG $100 notes; (2) review the actions RBOPS has taken to address the
printing problems, which included contracting for an independent technical
review, and to enhance controls to minimize the likelihood of future printing
problems; and (3) assess plans for the disposition of NXG $100 notes that have
already been printed.

Our analysis determined that actions taken by RBOPS appropriately addressed the
identified printing issues and enhanced controls to minimize the likelihood of
future printing problems. In addition, we determined that RBOPS staff is
participating in the assessment of plans for the disposition of the more than
1.4 billion NXG $100 notes that have been printed. We identified three areas,


    2. However, in response to a finding in the joint IGs’ report, the Joint Implementation Plan
was amended in April 2011 to expand on the protections for transferred OTS employees.

Semiannual Report to Congress                20                                         April 2012
however, in which RBOPS could strengthen oversight of the Federal Reserve note
design and quality control production process:

       RBOPS staff should comply with requirements in a memorandum of
        understanding (MOU) that details the authorities, responsibilities, and
        understandings between RBOPS and the BEP, to include agreeing on a
        limited initial production quantity of newly designed currency.

       The Interagency Currency Design workgroup, which provides technical
        guidance on currency design and other subjects that affect U.S. currency,
        should operate under an executed charter.

       The current MOU between the Board and the BEP should be updated and
        expanded to incorporate the increased complexity of note design, quality
        control, and production.

Our report contained recommendations to address the absence of (1) an approved
and signed Interagency Currency Design workgroup charter and (2) an updated
MOU that incorporates increased design complexities. We did not make a
recommendation regarding compliance with requirements in the MOU because
the Board and the BEP entered into a NXG $100 note production validation
agreement in September 2011 to ensure that all technical problems are identified
and resolved prior to restarting full production.

The Director of RBOPS agreed with our recommendations and specified actions
that have been or will be taken to implement them.

ONGOING INSPECTION AND EVALUATION WORK AT THE BOARD

Failed Bank Reviews

As discussed below, we are currently conducting three failed bank reviews.
These banks had total assets of approximately $2.8 billion and total losses to the
DIF estimated at $628.0 million, or approximately 22.4 percent of total assets.

Bank of the Commonwealth

On September 23, 2011, the Commonwealth of Virginia State Corporation
Commission, Bureau of Financial Institutions, closed Bank of the
Commonwealth, headquartered in Norfolk, Virginia. At closure, the FDIC
reported that Bank of the Commonwealth had approximately $974.9 million in
total assets. On October 12, 2011, the FDIC OIG notified our office that the
FDIC had estimated a $268.3 million loss to the DIF, which exceeds the statutory
threshold requiring us to conduct a material loss review. As such, we initiated a
material loss review, and we plan to issue our report by April 12, 2012.



Semiannual Report to Congress         21                                  April 2012
Community Banks of Colorado

On October 21, 2011, the Board appointed the FDIC as receiver for Community
Banks of Colorado, located in Greenwood Village, Colorado. At the closure, the
FDIC reported that Community Banks of Colorado had $1.3 billion in total assets.
On November 18, 2011, the FDIC OIG notified our office that the FDIC had
estimated a $224.9 million loss to the DIF, which exceed the statutory threshold
requiring us to conduct a material loss review. As such, we initiated a material
loss review, and we plan to issue our report by May 18, 2012.

Bank of Whitman

On August 5, 2011, the Washington Department of Financial Institutions closed
Bank of Whitman, headquartered in Colfax, Washington. At closure, the FDIC
reported that Bank of Whitman had $548.6 million in total assets as of June 30,
2011. On August 5, 2011, the FDIC estimated that the cost of the failure to the
DIF would be $134.8 million, which did not meet the materiality threshold as
defined under section 38(k) of the FDI Act. However, we determined that Bank
of Whitman’s failure presents unusual circumstances warranting an in-depth
review because, among other factors, (1) senior bank officials allegedly colluded
with other banks in a scheme designed to increase capital and (2) a borrower with
whom Bank of Whitman had a substantial relationship was allegedly involved in a
Ponzi scheme that may have involved the use of bank funds. Bank of Whitman
was cited for several violations of Washington’s legal lending limit, including
loans made to this borrower. We expect to issue our report by September 2012.

2012 Audit Survey of Board and CFPB Controls over Sensitive and Proprietary
Information Collected and Exchanged with FSOC

The Dodd-Frank Act created FSOC and CIGFO. FSOC is charged with
identifying threats to the financial stability of the country, promoting market
discipline, and responding to emerging risks to the stability of the nation’s
financial system.3 As such, FSOC collects and manages sensitive information
that must be properly safeguarded against unauthorized disclosure. CIGFO,
which comprises nine IGs of federal financial regulatory entities, was established
to facilitate information sharing among its IG members; provide a forum for
discussion of IG member work as it relates to the broader financial sector; and, by



    3. Voting FSOC members include the Secretary of the Treasury, the Chairman of the Board,
the Comptroller of the Currency, the Director of the CFPB, the Chairman of the SEC, the
Chairperson of FDIC, the Chairperson of the CFTC, the Director of the FHFA, the Chairman of
the NCUA Board, and an independent member with insurance expertise. Nonvoting FSOC
members include the Director of the Office of Financial Research, the Director of the Federal
Insurance Office, a state insurance commissioner, a state banking supervisor, and a state securities
commissioner. The entities covered within the scope of this audit consist of FSOC, the Office of
Financial Research, the Federal Insurance Office, and FSOC member agencies with voting rights.

Semiannual Report to Congress                 22                                         April 2012
a majority vote, convene a Working Group to evaluate the effectiveness and
internal operations of FSOC.

This audit survey is examining the controls and protocols that FSOC and its
member agencies have implemented to properly safeguard sensitive FSOC-related
information. As our part in accomplishing this objective, we will determine the
controls and protocols that have been established by the Board and the CFPB to
manage sensitive and proprietary FSOC-related information. CIGFO will prepare
a consolidated report containing the results of the respective IG members.

Review of the Unauthorized Disclosure of a “Confidential Staff Draft” of the
Volcker Rule Notice of Proposed Rulemaking

On October 11, 2011, the Board, the FDIC, and the OCC issued press releases
requesting public comment on a notice of proposed rulemaking implementing the
requirements of section 619 of the Dodd-Frank Act.4 Section 619, which amends
the Bank Holding Company Act of 1956 (12 U.S.C. § 1841 et seq.), contains two
key prohibitions on the activities of insured depository institutions, bank holding
companies, and their subsidiaries or affiliates.5 The first prohibition precludes
banking entities from engaging in short-term proprietary trading of any security,
derivative, and certain other financial instruments for a banking entity’s own
account.6 The second prohibition precludes banking entities from owning,
sponsoring, or having certain relationships with a hedge fund or private equity
fund.7 These two prohibitions are commonly referred to as the “Volcker Rule.”8
The notice of proposed rulemaking to implement the Volcker Rule (referred to
hereafter as the NPRM) has attracted considerable attention because the two
prohibitions require adjustments to the business models of large, complex banking
organizations.



     4. Section 619 of the Dodd-Frank Act appears in Pub. L. No. 111-203, 124 Stat. 1620-31, and
is codified at 12 U.S.C. § 1851. The October 11, 2011, version of the notice of proposed
rulemaking (NPRM) had not been paginated or formatted for purposes of the Federal Register.
The NPRM, “Prohibitions and Restrictions on Proprietary Trading and Certain Interests In, and
Relationships With, Hedge Funds and Private Equity Funds,” appeared in the November 7, 2011,
Federal Register. 76 Fed. Reg. 68846 (Nov. 7, 2011).
     5. Section 619 amends the Bank Holding Company Act of 1956 by adding a new section 13,
“Prohibitions on Proprietary Trading and Certain Relationships with Hedge Funds and Private
Equity Funds.”
     6. Proprietary trading refers to trading in stocks or other financial instruments using the
institution’s own funds to profit from short-term price changes.
     7. Hedge funds refer to investment vehicles that engage in active trading of securities and
other financial contracts. Private equity funds generally refer to funds that use leverage or other
methods to invest in companies or other less liquid investments.
     8. Former Board Chairman Paul Volcker, while serving as the Chairman of the President’s
Economic Recovery Advisory Board, opined that the riskier trading activities of commercial
banks and their affiliates contributed to the recent financial crisis. The “Volcker Rule” generally
refers to separating commercial banking from riskier activities such as proprietary trading and
operating a hedge fund or engaging in private equity activities.

Semiannual Report to Congress                23                                         April 2012
Section 619 required the Board, the FDIC, the OCC, the SEC, and the CFTC
(collectively, the Agencies) to jointly adopt rules to implement its provisions. As
part of this joint rulemaking process, Board employees involved in the rulemaking
distributed several versions of the NPRM to the Agencies for deliberation,
including a “confidential staff draft” dated September 30, 2011. On October 5,
2011, American Banker, a banking and financial services media outlet, published
this nonpublic, confidential staff draft of the NPRM on its website. We are
conducting this review to evaluate whether Board and/or Federal Reserve Bank of
New York staff had knowledge of, or played a role in, the unauthorized disclosure
of the confidential staff draft of the NPRM and to assess the Board’s information-
sharing practices for rulemaking activities. We plan to issue our report during the
next semiannual reporting period.

Inspection of the Board’s Protective Services Unit

During this semiannual reporting period, we completed fieldwork and began
drafting our report on an inspection of the Board’s Protective Services Unit, the
organization that ensures the physical security of the Chairman of the Board of
Governors of the Federal Reserve System. The USA Patriot Act of 2001 granted
the Board certain federal law enforcement authorities, and the regulations
implementing this authority designated the OIG as the external oversight function
for the Board’s law enforcement programs. We are performing this inspection to
fulfill our external oversight function responsibility. The objective of this
inspection is to provide reasonable assurance that the Protective Services Unit’s
operations comply with applicable laws, regulations, policies, and procedures and
align with law enforcement best practices.

Congressional Request Regarding the Examination Process for Small
Community Banks

During this reporting period, we received a letter from the Chairman of the Senate
Committee on Banking, Housing, and Urban Affairs requesting that we audit the
Board’s examination process for small community banks. Based on the
Chairman’s request, we plan to review (1) the Board’s examination timelines and
how the Board ensures consistency in the administration of examinations
throughout the Federal Reserve System, (2) the ability of Board-regulated
institutions to question examination results through the Board’s Ombudsman
program or other appeals process, and (3) the frequency and results of
examination appeals. We have begun our fieldwork to fulfill this request and plan
to complete the audit during the next semiannual reporting period.




Semiannual Report to Congress         24                                 April 2012
Evaluation of the Board’s Emergency Preparedness for Unexpected Emergency
Events

During this reporting period, we initiated an evaluation of the Board’s emergency
preparedness. The objective of this review is to evaluate the Board’s policies and
procedures for responding to unexpected emergency events. As part of this effort,
we will assess the law enforcement unit’s communication protocols for processing
and disseminating information to Board staff during such events. We plan to
complete this evaluation in late 2012.




Semiannual Report to Congress        25                                 April 2012
Information on Nonmaterial Losses to the Deposit
Insurance Fund, as Required by the Dodd-Frank Act
The FDI Act, as amended by the Dodd-Frank Act, requires the IG of the
appropriate federal banking agency to report, on a semiannual basis, certain
information on financial institutions that incurred nonmaterial losses to the DIF
and that failed during the respective six-month period. As shown in the table
below, one failed state member bank had a loss to the DIF that did not meet the
materiality threshold requiring an OIG review, which currently is a loss in excess
of $150.0 million. This institution had total assets of approximately
$256.6 million and losses estimated at $75.6 million, or 29.5 percent of total
assets.

When bank failures result in nonmaterial losses to the DIF, the IG is required to
determine (1) the grounds identified by the federal banking agency or the state
bank supervisor for appointing the FDIC as receiver9 and (2) whether the losses to
the DIF present unusual circumstances that would warrant an in-depth review. If
no unusual circumstances are identified, the IG is required to provide an
explanation of its determination.

We reviewed the state member bank failure to determine whether the resulting
loss to the DIF exhibited unusual circumstances that would warrant an in-depth
review. In general, we considered a loss to the DIF to present unusual
circumstances if the conditions associated with the bank’s deterioration, ultimate
closure, and supervision were not addressed in any of our prior bank failure
reports or involved potential fraudulent activity. To make this determination, we
analyzed key data from the five-year period preceding the bank’s closure. These
data generally comprised Federal Reserve Bank and state examination schedules;
Reports of Examination, including CAMELS ratings and financial data; informal
and formal enforcement actions and other supervisory activities, such as
visitations; and PCA determinations. As shown in the below table, we determined
that the state member bank failure did not exhibit unusual circumstances
warranting an in-depth review.

Nonmaterial State Member Bank Failures during the Reporting Period
                                                  DIF
                                                Projected                   OIG Summary of
                                   Asset size     Loss          Closure     State’s Grounds
 State Member Bank    Location     (millions)   (millions)       Date       for Receivership     OIG Determination

BankEast              Knoxville,    $256.6        $75.6        01/27/2012   Unsound condition          No unusual
                        TN                                                                        circumstances noted




   9. Typically, the state closes state member banks and appoints the FDIC as receiver.

Semiannual Report to Congress                             26                                    April 2012
Consumer Financial Protection Bureau
The Dodd-Frank Act established the CFPB as an independent entity within the
Federal Reserve System and designated our office as the CFPB’s OIG. The
CFPB’s statutory purpose is to implement and, as applicable, consistently enforce
federal consumer financial law to ensure that all consumers have access to
markets for financial products and services and that these markets are fair,
transparent, and competitive. On July 21, 2011, certain authorities transferred
from other agencies to the CFPB. The following are highlights of our CFPB-
related oversight activities during the last six months.

COMPLETED WORK

Audit of the CFPB’s Information Security Program

During this reporting period, we completed our initial audit of the CFPB’s
Information Security Program and practices. The audit was performed pursuant
to FISMA, which requires that each agency IG conduct an annual independent
evaluation of the agency’s Information Security Program and practices.

The CFPB is relying on the Information Security Program and computer systems
of Treasury. As part of its 2011 FISMA audit, the Treasury OIG evaluated the
effectiveness of Treasury’s Information Security Programs, including controls for
15 systems across Treasury bureaus. One of the systems included in the Treasury
OIG’s FISMA review was a general support system that the CFPB is relying on
for network infrastructure and connectivity to support a number of applications.
To meet our annual FISMA reporting responsibilities for the CFPB and avoid
duplication of effort, we relied on the FISMA work performed by the Treasury
OIG.

The Treasury OIG contracted with KPMG LLC, an independent certified public
accounting firm, to perform its 2011 FISMA audit. Overall, KPMG concluded
that Treasury’s Information Security Program and practices for its non-Internal
Revenue Service bureaus’ unclassified systems were generally consistent with the
requirements of FISMA. KPMG noted, however, that “Treasury’s Information
Security Program was not fully effective,” as evidenced by control weaknesses
identified for various Treasury systems. Treasury can improve the effectiveness
of its Information Security Program and controls for the general support system
that CFPB relies on by strengthening risk management, configuration
management, and contingency planning controls.

In comments on a draft of our report, the CFPB CIO stated that the CFPB
continues to leverage certain services provided by Treasury as an interim means
to maintain operational efficiencies. The CIO also noted that a key component of
CFPB technology independence is a robust and comprehensive cyber-security
program. The CFPB’s cyber security program is aligned to the risk management
framework developed by NIST. As a newly established agency, the CFPB is



Semiannual Report to Congress              27                           April 2012
working steadily to develop and mature its internal functions and processes,
including the many facets of technology management.

ONGOING WORK

Evaluation of the CFPB’s Contract Solicitation and Selection Process

The CFPB established a procurement function and has been contracting for goods
and services. Accordingly, we are conducting an evaluation of certain aspects of
the CFPB’s contracting process. The evaluation objective is to determine whether
the CFPB’s contract solicitation and selection processes and practices are
compliant with applicable rules established by the Federal Acquisition
Regulation. During this reporting period, we initiated fieldwork and began
assessing the CFPB’s contracting activities.

Evaluation of the CFPB’s Consumer Response Center

As of March 5, 2012, the CFPB’s Consumer Response Center is accepting
complaints regarding credit cards, mortgages, checking accounts, and private
student loans through its website and toll-free number. As part of our office’s
oversight responsibilities, we are assessing several of the Consumer Response
Center’s processes. Our objectives are to (1) evaluate the process the CFPB has
established to receive, track, and respond to consumer complaints; (2) assess the
CFPB’s coordination with federal and state regulatory agencies regarding the
processing and referral of complaints; and (3) determine the extent to which the
CFPB is assessing its performance when responding to consumer complaints.

Evaluation of the CFPB’s Annual Budget Process

During this reporting period, we initiated an evaluation of the CFPB’s annual
budget process. As an independent agency within the Federal Reserve System,
the CFPB is funded principally by the Federal Reserve System in amounts
determined by the CFPB Director as necessary to carry out the agency’s
operations, subject to limits established in the Dodd-Frank Act. These transferred
funds are not subject to the congressional appropriations process. The CFPB
prepared and publicly issued budget documents for fiscal years 2012 and 2013. In
the CFPB’s 2013 budget justification issued in February 2012, the agency
estimated budgeted expenses of $356 million in fiscal year 2012 and $448 million
in fiscal year 2013. We are currently performing an initial scoping effort to
establish the specific objectives, scope, and methodology for this evaluation.

2012 Audit Survey of Board and CFPB Controls over Sensitive and Proprietary
Information Collected and Exchanged with the FSOC

(See page 22 for a description of this audit survey.)



Semiannual Report to Congress          28                                April 2012
Investigations
The OIG’s Investigations office conducts criminal, civil, and administrative
investigations related to Board and CFPB programs and operations. The OIG
operates under statutory law enforcement authority granted by the U.S. Attorney
General, which vests our special agents with the authority to carry firearms, make
arrests without a warrant, seek and execute search and arrest warrants, and seize
evidence. Our special agents engage in joint task force and other criminal
investigations involving matters such as bank fraud, mortgage fraud, money
laundering, and other financially related crimes impacting Board- and CFPB-
regulated financial institutions. OIG investigations are conducted in compliance
with CIGIE’s Quality Standards for Investigations.

INVESTIGATIVE ACTIVITIES

During this reporting period, we opened 8 cases, closed 3 cases, and ended the
period with 43 investigations in progress. Due to the sensitivity of these
investigations, we only report on concluded and ongoing activities that have
resulted in criminal, civil, or administrative action. The following summaries
highlight our significant investigative activity during this semiannual reporting
period.

Former President and Chief Executive Officer of Orion Bank Pleads Guilty to
Bank Fraud Charges

On February 3, 2012, the president and chief executive officer of Orion Bank,
Naples, Florida, entered a guilty plea to a criminal information in which he was
charged with conspiring to commit bank fraud, misapplying bank funds, making
false entries in the bank’s books and records, and obstructing a bank examination.
The charges relate to his role in a scheme to lend $82 million to “straw”
borrowers acting on behalf of an Orion Bank borrower (hereafter referred to as
the initial borrower) who had reached the bank’s legal lending limit.
Additionally, the loans concealed $15 million in bank funds to be used for the
purchase of Orion stock by the initial borrower, in violation of banking laws and
regulations. Orion Bank proceeded to fund the loan transactions even though
bank executives, including the president, became aware prior to loan closing that
the initial borrower’s entire loan relationship was based on fraudulent financial
documents.

In 2009, Orion Bank was in danger of being declared critically undercapitalized
by the Board. The president indicated that the bank was in the process of raising
$75 million in additional capital. After unsuccessful attempts to raise capital
conventionally, he and the other co-conspirators developed a scheme to increase
loans in process to the initial borrower and another borrower to provide financing
for the purchase of bank stock. The president took this action despite knowing
that such loans were prohibited by banking laws and regulations. He directed that
$82 million in additional loans be made to straw borrowers acting for the initial
borrower. He directed Orion Bank staff to continue with the loans to the initial


Semiannual Report to Congress                29                             April 2012
borrower, despite learning prior to closing the loans that the initial borrower’s
entire relationship with the bank, which was in excess of $40 million, was based
on fraudulent financial documents. Based on agreements with the president, the
initial borrower purchased $15 million of Orion Bancorp, Inc. stock, and the
second borrower purchased $10 million in stock, in violation of banking laws and
regulations. Following the illegal stock transactions, the president repeatedly lied
to the bank’s regulators regarding the source of the capital infusion. During the
course of the scheme, the president also sold more than $750,000 of his personal
bank stock to other investors under false pretenses.

The president is scheduled to be sentenced on May 15, 2012, and is facing a
maximum of 15 years in prison. In addition, two senior loan officers are currently
serving 24 and 30 months, respectively, for their roles in the conspiracy and were
ordered to jointly and severally pay $33,512,618 in restitution. Additionally, the
initial borrower is currently serving 65 months in prison and was ordered to pay
$65,214,419 in restitution.

This was a joint investigation by the FBI, the Internal Revenue Service–Criminal
Investigation, the FDIC OIG, SIGTARP, and the Board’s OIG. The case was
prosecuted by the U.S. Attorney’s Office for the Middle District of Florida.

Two Former Officials of United Commercial Bank Indicted on Securities
Fraud Charges and Guilty Plea Entered by a Former Employee

On September 15, 2011, a former executive vice president and a former senior
vice president of United Commercial Bank (UCB) were indicted on charges of
conspiracy to commit securities fraud, security fraud, falsifying corporate books
and records, and lying to auditors. In addition, on October 13, 2011, the guilty
plea of a former UCB employee who admitted to charges of conspiracy to commit
securities fraud was unsealed. UCB was a subsidiary of United Commercial Bank
Holdings, Inc., which was a Board-regulated holding company whose shares were
registered with the SEC and were traded on the Nasdaq. The OIG initiated this
investigation at the request of the FBI and the U.S. Attorney’s Office for the
Northern District of California.

According to the indictment, from 2004 through 2007, UCB’s loan portfolio
increased from approximately $4.4 billion to more than $8.0 billion. By
September 2008, the bank’s portfolio faced growing losses. The indictment
alleges that, beginning in approximately September 2008, the former executive
vice president and the former senior vice president participated in a fraudulent
scheme to hide the bank’s true financial condition from the regulators,
independent auditors, investors, and depositors.

In May 2009, UCB announced that the financial statements contained in its
March 16, 2009, SEC Form 10-K were unreliable and that UCB intended to
restate them. However, prior to the restatement of the financial statements, UCB


Semiannual Report to Congress         30                                   April 2012
failed in November 2009, and the FDIC was appointed the receiver. The
indictment states that the FDIC paid out approximately $397 million and
estimates total losses to the FDIC will be approximately $2.5 billion. In addition,
the indictment reported that UCB received $298 million in TARP funds in
November 2008. To date, none of the TARP funds have been repaid.

The indictment charges that the defendants and others caused the bank to issue
materially false and misleading public statements and reports regarding its year-
end financial condition and performance in, among other things, a January 22,
2009, press release; an earnings call held on January 23, 2009; and an annual
report (SEC Form 10-K) filed on March 16, 2009.

This investigation is being worked jointly by the FBI, SIGTARP, the FDIC OIG,
and the Board’s OIG.

Twelve Individuals Arrested in Connection with Money Laundering Case

The OIG initiated this investigation based on a request from the U.S. Attorney’s
Office for the District of South Carolina. The OIG’s investigation revealed that
several individuals were engaged in money laundering and bank fraud at Federal
Reserve–regulated institutions. The investigation also revealed that these
individuals were operating unregistered money service businesses; a trucking
company; and convenience stores in the Charleston, South Carolina, metro
area. The individuals fraudulently obtained and misused social security numbers,
utilized business and personal financial accounts to send and receive domestic and
overseas wires, utilized unregistered money service businesses to wire an
undetermined amount of U.S. currency via Western Union to domestic and
international accounts, structured deposits with multiple financial institutions, and
made numerous false statements on various federal and state documents.

In June 2011, the OIG’s investigation was merged with an ongoing Bureau of
Alcohol, Tobacco, Firearms, and Explosives investigation involving illegal
cigarette sales. On December 5, 2011, 12 individuals were arrested in a money
laundering and a cigarette trafficking scheme spanning several states. These 12
individuals were simultaneously arrested in North Carolina, South Carolina, and
New York. Concurrent with the arrests, several search warrants were also
executed, resulting in the seizure of approximately $1.5 million in cash, 29
vehicles, and several businesses and residences.

This is a joint investigation by the Bureau of Alcohol, Tobacco, Firearms, and
Explosives; the Internal Revenue Service–Criminal Investigation; the U.S.
Diplomatic Security Service; the Charlotte Mecklenburg Police Department; the
Treasury OIG; and the Board’s OIG.




Semiannual Report to Congress          31                                  April 2012
Individual Sentenced in Maryland Mortgage Fraud Task Force Investigation

As part of the Maryland Mortgage Fraud Task Force, the OIG initiated an
investigation of an alleged mortgage fraud scheme. The investigation disclosed
that between June and September 2007, three subjects conspired to commit a
mortgage fraud scheme that netted more than $1.2 million from three federally
regulated financial institutions. Specifically, the subjects submitted false
mortgage applications for three properties that included false certifications of
occupancy and inflated income. Each of the properties went into foreclosure or
short sale, resulting in a total loss to the banks of $859,191.

On March 12, 2012, a Maryland woman was sentenced to six months of
incarceration to be followed by three years of supervised release, with the first six
months to be served under home detention, for conspiracy to commit wire fraud.
This subject was ordered to jointly and severally pay restitution of $859,191 with
two other previously sentenced subjects until the debt is satisfied.

This was a joint investigation by the FBI and the Board’s OIG. The case was
prosecuted by the U.S. Attorney’s Office for the District of Maryland, Southern
Division.

INVESTIGATIVE STATISTICS

Summary Statistics on Investigations during the Reporting Perioda
                              Investigative Actions                           Number
 Investigative Caseload
    Investigations Open at End of Previous Reporting Period                    38
    Investigations Opened during Reporting Period                               8
    Investigations Closed during Reporting Period                               3
    Total Investigations Open at End of Reporting Period                       43
 Investigative Results for Reporting Period
    Referred to Prosecutor                                                       8
    Joint Investigations                                                        39
    Referred for Audit                                                           0
    Referred for Administrative Action                                           1
    Oral and/or Written Reprimands                                               0
    Terminations of Employment                                                   0
    Arrests                                                                     15
    Suspensions                                                                  0
    Debarments                                                                   0
    Indictments                                                                 14
    Criminal Information                                                         1
    Convictions                                                                  2
    Monetary Recoveries                                                         $0
    Civil Actions (Fines and Restitution)                                       $0
    Criminal Fines, Restitution, and Forfeitures                       $66,074,082

   a. Some of the investigative numbers may include data also captured by other OIGs.




Semiannual Report to Congress                        32                                April 2012
HOTLINE ACTIVITIES

To report fraud, waste, abuse, or mismanagement related to the programs or
operations of the Board or the CFPB, individuals may contact the OIG Hotline by
mail, telephone, fax, or e-mail. Hotline staff analyzes all incoming complaints
and, as appropriate, coordinates with OIG and/or other federal staff. During this
reporting period, the Hotline received 280 complaints, a 55 percent increase from
the previous reporting period.

The OIG Hotline received an increasing number of complaints from individuals
seeking information about or wanting to file non-criminal consumer complaints
against financial institutions. Hotline staff analyzes these complaints and
typically refers the complainant to the consumer group of the appropriate federal
regulator for the institution involved, such as the Federal Reserve Consumer Help
unit or the Customer Assistance Group of the OCC. Beginning in July 2011, the
CFPB’s Consumer Response group began accepting credit card complaints from
consumers. Since then, the group has expanded to accept complaints about
mortgages and other bank products and services. As appropriate, Hotline staff
refers individuals to the CFPB’s Consumer Response group for assistance.

The OIG Hotline continued to receive a significant number of complaints
involving suspicious solicitations invoking the Federal Reserve name. During
this reporting period, the OIG Hotline posted information on its public website to
educate people about spam e-mails claiming to be from the Federal Reserve. We
have received positive feedback from individuals regarding this posting. Hotline
staff continues to advise all individuals that these spam e-mails are solicitations
that attempt to obtain the personal and/or financial information of the recipient
and that neither the Board nor the Federal Reserve Banks endorse or have any
involvement in them. As appropriate, the OIG may investigate these complaints.

During this reporting period, Hotline staff began presenting information about the
OIG and its Hotline to new employees of the Board and the CFPB at the agencies’
new employee orientations. Hotline staff will continue these presentations to
promote the mission and values of the OIG.

HOTLINE STATISTICS

Summary Statistics on Hotline Activities during the Reporting Period
           Hotline Complaints                                    Number

 Complaints Pending from Previous Reporting Period                   2
 Complaints Received during Reporting Period                       280
 Total Complaints for Reporting Period                             282

 Complaints Resolved during Reporting Period                       274
 Complaints Pending                                                  8




Semiannual Report to Congress                        33                   April 2012
Legal Services
The Legal Services program serves as the independent legal counsel to the IG and
the OIG staff. The Legal Services staff provides comprehensive legal advice,
research, counseling, analysis, and representation in support of OIG audits,
investigations, inspections, evaluations, and other professional, management, and
administrative functions. This work provides the legal basis for the conclusions,
findings, and recommendations contained within OIG reports. Moreover, Legal
Services keeps the IG and the OIG staff aware of recent legal developments that
may affect the activities of the OIG, the Board, and the CFPB.

In accordance with section 4(a)(2) of the IG Act, the Legal Services staff conducts
an independent review of newly enacted and proposed legislation and regulations
to determine their potential effect on the economy and efficiency of the Board’s
and the CFPB’s programs and operations. During this reporting period, Legal
Services reviewed 22 legislative and 11 regulatory items.




Semiannual Report to Congress                34                          April 2012
Communications and Coordination
While the OIG’s primary mission is to enhance the economy, efficiency, and
effectiveness of Board and CFPB programs and operations, we also coordinate
externally and work internally to achieve our goals and objectives. Externally, we
regularly coordinate with and provide information to Congress and congressional
staff. We also are active members of the broader IG professional community and
promote collaboration on shared concerns. Internally, we consistently strive to
enhance and maximize efficiency and transparency in our infrastructure and
day-to-day operations. Within the Board, the CFPB, and the Federal Reserve
System, we continue to provide information about the OIG’s roles and
responsibilities. In addition, we participate in an advisory capacity on various
Board work groups. Highlights of these activities follow.

Congressional Coordination and Testimony

The OIG communicates and coordinates with various congressional committees
on issues of mutual interest. During the reporting period, we provided 23
responses to congressional members and staff concerning the Board and the
CFPB.

Council of Inspectors General on Financial Oversight

Consistent with the Dodd-Frank Act, CIGFO is required to meet at least quarterly
to facilitate the sharing of information among the IGs and to discuss the ongoing
work of each IG, with a focus on concerns that may apply to the broader financial
sector and ways to improve financial oversight. During this reporting period,
CIGFO met on December 8, 2011, and March 30, 2012. The Treasury IG chairs
CIGFO. The Dodd-Frank Act authorizes CIGFO, by a majority vote, to convene
a Working Group to evaluate the effectiveness and internal operations of FSOC.
As discussed on page 22, we are currently working on an audit survey examining
the controls and protocols that FSOC and its member agencies have implemented
to properly safeguard sensitive FSOC-related information. To accomplish this
objective, we will determine the controls and protocols that have been established
by the Board and the CFPB to manage sensitive and proprietary FSOC-related
information. CIGFO will prepare a consolidated report containing the results of
the respective IG members.

In addition, CIGFO is required to annually issue a report that highlights the IGs’
concerns and recommendations, as well as issues that may apply to the broader
financial sector. CIGFO issued its first annual report on July 21, 2011, and is
currently working on its second annual report.

Council of the Inspectors General on Integrity and Efficiency and IG
Community Involvement

The IG serves as a member of CIGIE, which provides a forum for IGs from
various government agencies to discuss governmentwide issues and shared

Semiannual Report to Congress           35                                April 2012
concerns. Collectively, the members of CIGIE help improve government
programs and operations. The IG also serves as a member of CIGIE’s Legislation
Committee and Inspection and Evaluation Committee, and he leads the
Information Technology Subcommittee of the Legislation Committee. The
Legislation Committee is the central point of information regarding legislative
initiatives and congressional activities that may affect the community, such as
proposed cybersecurity legislation that was reviewed during the reporting period.
The Inspection and Evaluation Committee provides leadership for the inspection
and evaluation community’s efforts to improve agency program effectiveness by
maintaining professional standards; leading the development of protocols for
reviewing management issues that cut across departments and agencies;
promoting the use of advanced program evaluation techniques; and fostering
awareness of evaluation and inspection practices in OIGs.

The Associate IG for Legal Services serves as the Vice Chair of the Council of
Counsels to the IG, and her staff attorneys are members of the council. In
addition, the Associate IG for Audits and Attestations serves as chair of the IT
Committee of the Federal Audit Executive Council and works with audit staff
throughout the IG community on common IT audit issues.

Financial Regulatory Coordination

To foster cooperation on issues of mutual interest, including issues related to the
current financial crisis, the IG meets periodically with the IGs from other federal
financial regulatory agencies: the FDIC, Treasury, the NCUA, the SEC, the Farm
Credit Administration, the CFTC, the Pension Benefit Guaranty Corporation (PBGC),
the Export-Import Bank, and the FHFA. In addition, the Associate IG for Audits and
Attestations and the Associate IG for Inspections and Evaluations meet with their
financial regulatory agency OIG counterparts to discuss various topics, including
bank failure material loss review best practices, annual plans, and ongoing projects.
We also coordinate with the Government Accountability Office regarding financial
regulatory and other related issues.




Semiannual Report to Congress           36                                April 2012
Appendixes
Appendix 1a
Audit, Inspection, and Evaluation Reports Issued to the Board with
Questioned Costs during the Reporting Perioda
                                       Reports                                              Number          Dollar Value

 For which no management decision had been made by the commencement of the                      0                 $0
    reporting period

 That were issued during the reporting period                                                   0                 $0

 For which a management decision was made during the reporting period                           0                 $0

  (i)    dollar value of recommendations that were agreed to by management                       0                $0

  (ii)   dollar value of recommendations that were not agreed to by management                  0                 $0

 For which no management decision had been made by the end of the reporting period              0                 $0

 For which no management decision was made within six months of issuance                        0                 $0

  a. Because the Board is primarily a regulatory and policymaking agency, our recommendations typically focus on
program effectiveness and efficiency, as well as strengthening internal controls. As such, the monetary benefit associated
with their implementation typically is not readily quantifiable.




_______________________________________________________________________________
Semiannual Report to Congress          39                             April 2012
Appendix 1b
Audit, Inspection, and Evaluation Reports Issued to the CFPB with
Questioned Costs during the Reporting Perioda
                                       Reports                                              Number          Dollar Value

 For which no management decision had been made by the commencement of the                      0                 $0
    reporting period

 That were issued during the reporting period                                                   0                 $0

 For which a management decision was made during the reporting period                           0                 $0

  (i)    dollar value of recommendations that were agreed to by management                       0                $0

  (ii)   dollar value of recommendations that were not agreed to by management                  0                 $0

 For which no management decision had been made by the end of the reporting period              0                 $0

 For which no management decision was made within six months of issuance                        0                 $0

  a. Because the CFPB is primarily a regulatory and policymaking agency, our recommendations typically focus on
program effectiveness and efficiency, as well as strengthening internal controls. As such, the monetary benefit associated
with their implementation typically is not readily quantifiable.




_______________________________________________________________________________
Semiannual Report to Congress          40                             April 2012
Appendix 2a
Audit, Inspection, and Evaluation Reports Issued to the Board with
Recommendations that Funds Be Put to Better Use during the Reporting
Perioda
                                       Reports                                              Number          Dollar Value

 For which no management decision had been made by the commencement of the                      0                 $0
    reporting period

 That were issued during the reporting period                                                   0                 $0

 For which a management decision was made during the reporting period                           0                 $0

  (i)    dollar value of recommendations that were agreed to by management                       0                $0

  (ii)   dollar value of recommendations that were not agreed to by management                  0                 $0

 For which no management decision had been made by the end of the reporting period              0                 $0

 For which no management decision was made within six months of issuance                        0                 $0

  a. Because the Board is primarily a regulatory and policymaking agency, our recommendations typically focus on
program effectiveness and efficiency, as well as strengthening internal controls. As such, the monetary benefit associated
with their implementation typically is not readily quantifiable.




_______________________________________________________________________________
Semiannual Report to Congress          41                             April 2012
Appendix 2b
Audit, Inspection, and Evaluation Reports Issued to the CFPB with
Recommendations that Funds Be Put to Better Use during the Reporting
Perioda
                                       Reports                                              Number          Dollar Value

 For which no management decision had been made by the commencement of the                      0                 $0
    reporting period

 That were issued during the reporting period                                                   0                 $0

 For which a management decision was made during the reporting period                           0                 $0

  (i)    dollar value of recommendations that were agreed to by management                      0                 $0

  (ii)   dollar value of recommendations that were not agreed to by management                  0                 $0

 For which no management decision had been made by the end of the reporting period              0                 $0

 For which no management decision was made within six months of issuance                        0                 $0

  a. Because the CFPB is primarily a regulatory and policymaking agency, our recommendations typically focus on
program effectiveness and efficiency, as well as strengthening internal controls. As such, the monetary benefit associated
with their implementation typically is not readily quantifiable.




_______________________________________________________________________________
Semiannual Report to Congress          42                             April 2012
Appendix 3a
OIG Reports to the Board with Recommendations that Were Open during
the Reporting Perioda
                                                                             Recommendations               Status of Recommendations

                                                           Issue                  Mgmt.       Mgmt.    Last Follow-up
                     Report Title                          Date        No.        Agrees     Disagrees      Date      Closed Open

 Evaluation of Service Credit Computations                 08/05         3           3            –            03/07           1    2

 Security Control Review of the Central Document           10/06       16           16            –            03/12          16    –
   and Text Repository System (Nonpublic Report)

 Audit of the Board’s Payroll Process                      12/06         7           7            –            03/10           3    4

 Security Control Review of the Internet Electronic        02/07       13           13            –            09/09          12    1
   Submission System (Nonpublic Report)

 Audit of the Board’s Compliance with Overtime             03/07         2           2            –            03/08           1    1
   Requirements of the Fair Labor Standards Act

 Security Control Review of the FISMA Assets               09/08       11           11            –            09/11          10    1
   Maintained by FRB Boston (Nonpublic Report)

 Evaluation of Data Flows for Board Employee Data          09/08         2           2            –            03/11           1    1
   Received by OEB and its Contractors (Nonpublic
   Report)

 Audit of the Board’s Information Security Program         09/08         2           2            –            11/11           2    –

 Control Review of the Board’s Currency                    09/08         6           6            –            03/10           5    1
   Expenditures and Assessments

 Audit of Blackberry and Cell Phone Internal Controls      03/09         3           3            –            09/11           2    1

 Security Control Review of the Audit Logging              03/09         4           4            –            09/11           3    1
   Provided by the Information Technology General
   Support System (Nonpublic Report)

 Audit of the Board’s Processing of Applications for       09/09         2           2            –            03/12           2    –
   the Capital Purchase Program under the Troubled
   Asset Relief Program

 Audit of the Board’s Information Security Program         11/09         4           4            –            11/11           4    –

 Security Control Review of the Lotus Notes and            06/10       10           10            –              –             –   10
   Lotus Domino Infrastructure (Nonpublic Report)

 Audit of the Board’s Information Security Program         11/10         3           3            –            11/11           3    –

 Security Control Review of the Internet Electronic        12/10         6           6            –              –             –    6
   Submission System (Nonpublic Report)

 Audit of the Board’s Transportation Subsidy               03/11         3           3            –              –             –    3
   Program

 Response to a Congressional Request Regarding the         06/11         2           2            –              –             –    2
   Economic Analysis Associated with Specified
   Rulemakings

   a. A recommendation is closed if (1) the corrective action has been taken; (2) the recommendation is no longer applicable; or (3) the
appropriate oversight committee or administrator has determined, after reviewing the position of the OIG and division management, that
no further action by the agency is warranted. A recommendation is open if (1) division management agrees with the recommendation
and is in the process of taking corrective action, or (2) division management disagrees with the recommendation and we have referred or
are referring it to the appropriate oversight committee or administrator for a final decision.




Semiannual Report to Congress                                43                                              April 2012
Appendix 3a—continued
OIG Reports to the Board with Recommendations that Were Open during
the Reporting Period
                                                                         Recommendations         Status of Recommendations

                                                       Issue                 Mgmt.     Mgmt.    Last Follow-up
                    Report Title                       Date        No.       Agrees   Disagrees      Date      Closed Open

 Review of the Failure of Pierce Commercial Bank       09/11         2           2         –          –           –    2

 Security Control Review of the Visitor Registration   09/11        10          10         –          –           –   10
   System (Nonpublic Report)

 Audit of the Board’s Implementation of the            09/11         1           1         –        12/11         1    –
   Dodd-Frank Wall Street Reform and Consumer
   Protection Act

 Summary Analysis of Failed Bank Reviews               09/11         3           3         –          –           –    3

 Evaluation of Prompt Regulatory Action                09/11        1b           1         –          –           –    1
   Implementation

 Audit of the Board’s Information Security Program     11/11         1           1         –          –           –    1

 Review of RBOPS’ Oversight of the Next                01/12         2           2         –          –           –    2
   Generation $100 Note

 Security Control Review of the National Remote        03/12         8           8         –          –           –    8
   Access Services System (Nonpublic Report)

   b. This recommendation was directed jointly to the OCC, the FDIC, and the Board.




Semiannual Report to Congress                             44                                       April 2012
Appendix 3b
OIG Reports to the CFPB with Recommendations that Were Open during the
Reporting Period
                                               Recommendations         Status of Recommendations

                                 Issue             Mgmt.     Mgmt.    Last Follow-up
                 Report Title    Date    No.       Agrees   Disagrees      Date      Closed Open

 None with OIG recommendations




Semiannual Report to Congress       45                                   April 2012
Appendix 4a
Audit, Inspection, and Evaluation Reports Issued to the Board during the
Reporting Period
                                          Title                                                   Type of Report

 Reviews of Bank Failures

   Material Loss Review of Park Avenue Bank                                                          Evaluation

   Review of the Failure of Legacy Bank                                                              Evaluation

   Material Loss Review of First Chicago Bank and Trust                                              Evaluation

 Information Technology Audits

   Audit of the Board’s Information Security Program                                                   Audit

   Security Control Review of the National Remote Access Services System (Nonpublic Report)            Audit

 Program Audits and Evaluations

   Review of RBOPS’ Oversight of the Next Generation $100 Note                                       Evaluation

   Audit of the Board of Governors of the Federal System Financial Statements as of and for the        Audit
   Years Ended December 31, 2011 and 2010
   Audit of the Federal Financial Institutions Examination Council Financial Statements as of          Audit
   and for the Years Ended December 31, 2011 and 2010
   Status of the Transfer of Office of Thrift Supervision Functions                                  Evaluation

   Inquiry into Allegations of Undue Political Interference with Federal Reserve Officials           Evaluation
   Related to the 1972 Watergate Burglary and Iraq Weapons Purchases during the 1980s


Total Number of Audit Reports: 4
Total Number of Inspection and Evaluation Reports: 6

Full copies of the public reports are available on our website at
http://www.federalreserve.gov/oig/default.htm




Semiannual Report to Congress                                46                                        April 2012
Appendix 4b
Audit, Inspection, and Evaluation Reports Issued to the CFPB during the
Reporting Period
                                        Title                                            Type of Report

 Information Technology Audits

   Audit of the Bureau of Consumer Financial Protection’s Information Security Program        Audit




Total Number of Audit Reports: 1
Total Number of Inspection and Evaluation Reports: 0

Full copies of the public reports are available on our website at
http://www.federalreserve.gov/oig/default.htm




Semiannual Report to Congress                             47                                 April 2012
Appendix 5
OIG Peer Reviews

Government auditing and investigative standards require that our audit and
investigative units each be reviewed by a peer OIG organization every three
years. Section 989C of the Dodd-Frank Act amended the IG Act to require that
OIGs provide in their semiannual reports to Congress specified information
regarding (1) peer reviews of their respective organizations and (2) peer reviews
they have conducted of other OIGs. The following information addresses these
Dodd-Frank Act requirements.

        During the reporting period, the PBGC OIG completed its peer review of
         our audit organization’s quality control system in place for the period
         April 1, 2010, through March 31, 2011. The review focused on whether
         our system of quality control was suitably designed and whether we were
         complying with the quality control system, in order to provide us with
         reasonable assurance of conforming with applicable professional
         standards. The PBGC OIG review concluded that the system of quality
         control for our audit organization in effect for the one-year period ended
         March 31, 2011, was suitably designed and complied with to provide us
         with reasonable assurance of performing and reporting in conformity
         with applicable professional standards in all material respects. Federal
         audit organizations can receive a rating of pass, pass with deficiencies, or
         fail. The PBGC OIG assigned a peer review rating of pass for the period
         reviewed. There were no report recommendations, nor were any peer
         review recommendations pending from any previous peer reviews of our
         audit organization. We provided copies of the peer review report to the
         appropriate entities.

        The last peer review of the OIG’s Investigations program was completed
         in March 2008 by the U.S. Government Printing Office OIG. No
         recommendations from this or any prior peer reviews are pending. On
         June 9, 2010, the U.S. Attorney General approved the OIG’s request to
         exercise statutory law enforcement authority. As a result and in
         accordance with Attorney General guidelines, Investigations’ next peer
         review is due three years from the date of receiving statutory law
         enforcement authority.

        Our audit staff began preparations for conducting a peer review of the
         Office of Personnel Management’s audit organization. We anticipate
         issuing our report during the next reporting period.

Copies of our peer review reports are available on our website at
http://www.federalreserve.gov/oig/peer review reports.htm.



Semiannual Report to Congress              48                               April 2012
Appendix 6
Cross-References to the IG Act
Indexed below are the reporting requirements prescribed by the IG Act with
the contents of this report.
      Section                                             Source                                  Page(s)

4(a)(2)           Review of legislation and regulations                                             34

5(a)(1)           Significant problems, abuses, and deficiencies                                   None

5(a)(2)           Recommendations with respect to significant problems                             None

5(a)(3)           Significant recommendations described in previous semiannual reports on which    None
                  corrective action has not been completed

5(a)(4)           Matters referred to prosecutorial authorities                                     32

5(a)(5);6(b)(2)   Summary of instances where information was refused                               None

5(a)(6)           List of audit, inspection, and evaluation reports                               46-47

5(a)(7)           Summary of particularly significant reports                                      None

5(a)(8)           Statistical table of questioned costs                                           39-40

5(a)(9)           Statistical table of recommendations that funds be put to better use            41-42

5(a)(10)          Summary of audit, inspection, and evaluation reports issued before the           None
                  commencement of the reporting period for which no management decision has
                  been made

5(a)(11)          Significant revised management decisions made during the reporting period        None

5(a)(12)          Significant management decisions with which the Inspector General is in          None
                  disagreement

5(a)(14), (15),   Peer review summary                                                               48
 and (16)




Semiannual Report to Congress                               49                                     April 2012
Table of Acronyms and Abbreviations
 BEP                 Bureau of Engraving and Printing
 Board               Board of Governors of the Federal Reserve System
 BS&R                Division of Banking Supervision and Regulation
 CFPB                Consumer Financial Protection Bureau
 CFTC                Commodity Futures Trading Commission
 CIGFO               Council of Inspectors General on Financial Oversight
 CIGIE               Council of the Inspectors General on Integrity and Efficiency
 CIO                 Chief Information Officer
 CLD                 Construction, Land, and Land Development
 CRE                 Commercial Real Estate

 DIF                 Deposit Insurance Fund
 Dodd-Frank Act      Dodd-Frank Wall Street Reform and Consumer Protection Act
 FBI                 Federal Bureau of Investigation

 FDI Act             Federal Deposit Insurance Act
 FDIC                Federal Deposit Insurance Corporation
 FFIEC               Federal Financial Institutions Examination Council

 FHFA                Federal Housing Finance Agency
 First Chicago       First Chicago Bank and Trust
 FISMA               Federal Information Security Management Act of 2002
 FRB Atlanta         Federal Reserve Bank of Atlanta

 FRB Chicago         Federal Reserve Bank of Chicago
 FSOC                Financial Stability Oversight Council
 IG                  Inspector General
 IG Act              Inspector General Act of 1978, as amended
 ISO                 Information Security Officer
 IT                  Information Technology
 Legacy              Legacy Bank
 MOU                 Memorandum of Understanding
 NCUA                National Credit Union Administration
 NIST                National Institute of Standards and Technology
 NPRM                Notice of Proposed Rulemaking




Semiannual Report to Congress                    51                                  April 2012
Table of Acronyms and Abbreviations
 NRAS                National Remote Access Services
 NXG                 Next Generation
 OCC                 Office of the Comptroller of the Currency
 OEB                 Office of Employee Benefits
 OIG                 Office of Inspector General
 OMB                 Office of Management and Budget
 OTS                 Office of Thrift Supervision
 Park Avenue         The Park Avenue Bank
 PBGC                Pension Benefit Guaranty Corporation
 PCA                 Prompt Corrective Action

 Pubweb              Public Website
 RBOPS               Division of Reserve Bank Operations and Payment Systems
 SEC                 Securities and Exchange Commission

 SIGTARP             Special Inspector General for the Troubled Asset Relief Program
 SP 800-53           Special Publication 800-53, Recommended Security Controls for Federal
                     Information Systems and Organizations
 SR Letter 07-01     Supervision and Regulation Letter 07-01, Interagency Guidance on
                     Concentrations in Commercial Real Estate Lending, Sound Risk
                     Management Practices
 TARP                Troubled Asset Relief Program

 Treasury            U.S. Department of the Treasury
 UCB                 United Commercial Bank




Semiannual Report to Congress                   52                                 April 2012
Report: Fraud, Waste, Abuse, or Mismanagement
             Inspector General Hotline
                         (800) 827-3340
                         (202) 452-6400


               You may also mail a complaint to
                  Office of Inspector General
       Board of Governors of the Federal Reserve System
             20th St. and Constitution Ave., N.W.
                       Mail Stop K-300
                   Washington, D.C. 20551
                         Attn: Hotline

                          or e-mail
                      OIGHotline@frb.gov

     To learn more about the OIG, please visit our website at
               http://www.federalreserve.gov/oig
